In Supreme Court United States
No. 19-1231
Cheryl Wolf et al Petitioners v. United States Respondent
Certificate of Service

I Raymond J Fallica swear under the penalty of perjury
Certificate of service completed Corrected Petition for Rehearing Writ
Mandamus 19-1321 issued original proceeding Supreme Court of U S;
copy Corrected Petition for Rehearing placed into sealed envelope
mailed to the Attorney for Respondent United States address:
DOJ Solicitor General of the U S, Room 5616, 950 Pennsylvania
Ave., NW Washington, D.C. 20530-0001: Phone. (202) 514-2203
Mailed by U S Postal Service or by courier, third party carrier, mailed
Date November 17, 2020

^3—

Raymond J Fallica Petitioner Pro Se
Administrator Cage Code 03PL0
6 Ethel Court
Wheatley Heights N Y 11798
Tel 631 374-4649

